3ftt tlje

Supreme Court of tfje fHntteb States
IN RE ABDUL MOHAMMED, PETITIONER

On Petition for Writ of Mandamus/Prohibition to
the United States District Court for the Northern
District of Illinois and the Executive Committee
of the United States District Court for the
Northern District of Illinois
APPENDIX TO PETITION FOR WRIT OF
MANDAMUS/PROHIBITION
Abdul Mohammed
Pro Se Petitioner
258 E. Bailey Rd, Apt C,
Naperville, IL 60565
(630) 854-5345
aamohammed@hotmail.coir

August 14, 2020

15

Case: 20-2090

In the Matter of
Abdul Mohammed

Filed: 08/13/2020
Document: 8
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
)
)
)
)

Pages: 2

Civil Action No.
20 C 3479

EXECUTIVE COMMITTEE ORDER
On June 3, 2020, the Law Firm of Robbins Schwartz submitted its Notice to the Executive
Committee on behalf of Defendants in case number 20 C 50133, Abdul Mohammed v. The State
of Illinois, et al, before the Honorable John Robert Blakey. Enclosed was Defendants’ motion to
have pro se plaintiff Abdul Mohammed declared a vexatious litigant.
On June 4, 2020, Mr. Mohammed submitted his Response to the motion of June 3, 2020.
On June 17, 2020, after consideration of the above-described documents in addition to
Mr. Mohammed’s many filings in this District, an Executive Committee order was entered,
restricting the filings of pro se plaintiff Abdul Mohammed and directing that any documents he
submits shall be reviewed by the Executive Committee to determine whether they should be filed.
The June 17, 2020 order noted that since February 22, 2016, pro se litigant Abdul
Mohammed had filed at least 14 cases in the Northern District of Illinois. The cases were
terminated for reasons such as defendants’ motion for summary judgment, case stayed pending
arbitration, plaintiffs motion to voluntarily dismiss, failure to state a claim, lack of subject matter
jurisdiction, and frivolous complaint.
On June 18, 2020, Mr. Mohammed submitted his Response to the Executive Committee’s
Order of June 17, 2020. Also on June 18, 2020, Mr. Mohammed submitted his Notice of Appeal
regarding the same Order.
On June 19, 2020, Prairie State Legal Services, Inc., on behalf of its Defendant client,
submitted its Defendants’ Memorandum in Support of Motion to Declare Abdul Mohammed as a
Vexatious Litigant.
On June 26, 2020, Mr. Mohammed submitted his Affidavit and in forma pauperis
application in Executive Committee case number 20 C 3479.
On June 29, 2020, the Honorable Manish S. Shah entered an order terminating case
number 20 C 3481, Abdul Mohammed v. Judge Jorge Alonso, et al, which was filed in the Central
District of Illinois and transferred to this District. The complaint accused Northern District of
Illinois judges of improper rulings and bias in Mr. Mohammed’s cases and requested
disqualification and vacatur of the judgments in his dismissed lawsuits.
At its meeting on July 6, 2020, the Executive Committee considered the above-listed
submissions and facts, and determined that Abdul Mohammed’s efforts in this District have
become burdensome to the Committee, straining the resources of the Court and the Clerk’s
Office, therefore
IT IS HEREBY ORDERED that Mr. Mohammed is granted leave to file his June 26, 2020
Affidavit and in forma pauperis application in case number 20 C 3479.

App 001

Case: 20-2090
Document: 8
Filed: 08/13/2020
Pages: 2
IT IS FURTHER ORDERED that for a period of 12 months from the date of this order, any
complaints, motions, or presentments received from Abdul Mohammed shall be discarded unfiled,
and
IT IS FURTHER ORDERED that no sooner than 12 months from the date of this order,
Mr. Mohammed may submit to the Executive Committee a motion to modify or rescind the
restrictions against him, and
IT IS FURTHER ORDERED that nothing in this order shall be construed —
a)

to affect Mr. Mohammed’s ability to defend himself in any criminal action,

b)

to deny Mr. Mohammed access to the federal courts through the filing of a
petition for a writ of habeas corpus or other extraordinary writ, or

c)

to deny Mr. Mohammed access to the United States Court of Appeals or
the United States Supreme Court.

IT IS FURTHER ORDERED That any new complaints filed by Mr. Mohammed and
transferred to this Court from another jurisdiction shall be reviewed by the Executive Committee
to determine whether they should be filed, and
IT IS FURTHER ORDERED That the Clerk shall cause a copy of this order to be mailed
to Mr. Mohammed at 258 East Bailey Rd., Apt. C, Naperville, Illinois 60565, the address given by
Mr. Mohammed in documents filed on June 30, 2020. Such mailing shall be by certified or
registered mail, return receipt requested.
ENTER:
FOR THE EXECUTIVE COMMITTEE
)
Chief Judge
Dated at Chicago, Illinois this 13th day of August, 2020

App 002

